U.S. Department of                                       The Inspector General            Office of lnspector General
Transportation                                                                            Wash~ngton.D.C. 20590

Office of the Secretary
of Transportation




May 1,2007


The Honorable Patty Murray                             The Honorable John W. Olver
Chairman                                               Chairman
Subcommittee on Transportation,                        Subcommittee on Transportation,
Housing and Urban Development, and                     Housing and Urban Development, and
Related Agencies                                       Related Agencies
Committee on Appropriations                            Committee on Appropriations
United States Senate                                   United States House of Representatives
Washington, DC 205 10                                  Washington, DC 205 15

The Honorable Christopher "Kit" Bond                   The Honorable Joe Knollenberg
Ranking Member                                         Ranking Member
Subcommittee on Transportation,                        Subcommittee on Transportation,
Housing and Urban Development, and                     Housing and Urban Development, and
Related Agencies                                       Related Agencies
Committee on Appropriations                            Committee on Appropriations
United States Senate                                   United States House of Representatives
Washington, DC 205 10                                  Washington, DC 205 15

Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

This report presents our second quarterly assessment1 of Amtrak's fiscal year
(FY) 2007 operational reforms savings2 and year-to-date financial performance.
Amtrak is likely to realize $39 million of .the $61 million in FY 2007 reform
savings it originally anticipated and $224 million of the $550 million in FY 20 11
savings originally anticipated once the reforms are more fully implemented.

In addition, Amtrak was $99 million ahead of its budget through March. This
favorable financial performance and Amtrak's sizeable cash balance at the start of
this fiscal year have resulted in Amtrak planning to increase spending by more
than $100 million on a combination of operating expenses and capital projects.
1
    Our January, April, July, and October 2006 and January 2007 quarterly reports on Amtrak's savings fiom
    operational reforms are available at www.oig.dot.gov.
2
    Defined throughout as either net operating savings or a reduction in net operating losses.
                                                                               2

Summary

   • Amtrak will not realize all of its proposed $61 million in savings from
     FY 2007 operational reforms because it canceled its sleeper car right-sizing
     and reservation call center initiatives. Amtrak is likely to make up some of
     the $21.9 million in foregone savings from these two initiatives from other
     operational reforms.

   • Through January 2007 Amtrak achieved $13.1 million in operational
     reform savings. Of this amount, $10.3 million came from food and
     beverage services reforms and reforms that improved Acela revenues. The
     remaining $2.8 million primarily came from reduced headcount in stations
     and overhead expenses.

   • Through March 2007, Amtrak’s operating loss was $207 million,
     $99 million better than planned, due to higher than expected revenues from
     Acela, lower than expected costs due to reduced headcount, and the timing
     of certain labor-related expenses.

   • This improved financial performance and substantial cash balance available
     at the start of the year have resulted in Amtrak deciding to increase
     spending by over $100 million, on a combination of operating and capital
     expenditures. Some of these expenditures were previously unbudgeted,
     while others were budgeted but not funded by Congress.

   • Amtrak plans to spend its cash balance down to $103.9 million, which is
     below the level it previously argued was prudent for a company of its size.

   • From strictly a process standpoint, we believe a better decision on how
      limited Federal resources are to be allocated would result if Congress were
      able to weigh all competing uses for excess Federal operating subsidies.
      Congress should decide whether the best use of these funds is for Amtrak
      or another Federal program. To be clear, our concerns lie with the process
      by which this spending decision was made, not how Amtrak chose to spend
      the funds.

   • The FY 2007 Business Plan Amtrak submitted to Congress and the
      Department of Transportation in March 2007 included an out-of-date
      operating budget, making the plan of limited use and possibly misleading.
      A more accurate Business Plan would better inform those making decisions
      regarding Amtrak’s resource requirements.



CC-2007-017
                                                                                                               3

Structure of the Report

This report will assess (1) Amtrak’s projected year-end financial performance;
(2) Amtrak’s financial performance through March 2007 on a corporate level and
by business line; (3) progress-to-date on the development and implementation of
strategic reform initiatives (SRI); and (4) cost savings through January 2007
associated with current reform initiatives.

Amtrak’s Favorable Year-End Financial Projections and Sizeable Start
of Year Cash Balance Result in Plans to Increase Spending

Amtrak plans to increase its spending this year by over $100 million on a
combination of operating and capital expenses. This increase in spending is made
possible by a favorable year-end financial projection and the $215 million cash
balance it had available at the start of the year.

In its FY 2007 Board-approved budget, Amtrak projected it would need
$565 million from a combination of Federal subsidy and savings to make ends
meet. This amount was comprised of $485 million in Federal operating subsidies
and $80 million in planned operational and other savings. In our January report,
we estimated Amtrak would require $15 million less than this amount. Amtrak
now projects its FY 2007 requirements will be $47 million below its original
projections3 (excluding new spending).

Amtrak’s Plan to Increase Spending Helps Reduce its Cash Balance Below
the Level It Claimed Is Prudent. Amtrak’s decision to increase spending
contributes to a projected end-of-year cash balance of $103.9 million. This is of
concern to us because Amtrak is not managing its budget to the cash balance it
previously stated it required. In our January 2007 quarterly report, we stated that
Amtrak could use $140 million of its FY 2006 $215 million cash balance to
partially fund its FY 2007 capital requirement. In response, Amtrak stated:

         We suggest that a company the size of Amtrak, with $3 billion per
         year in expenses, and extraordinary funding uncertainties, prudently
         requires cash working capital of at least $200 million, the
         approximate amount in place at the end of FY 2006.




3
 We believe this amount to be understated because, in our opinion, Amtrak is unlikely to spend all of the
amounts it projects it will spend in the last half of the fiscal year on its ongoing programs (excluding new
spending).


CC-2007-017
                                                                                  4

The low projected end-of-year cash balance suggests either Amtrak is poorly
managing its spending and cash balances or that Congress could look to Amtrak’s
cash balances as a means of meeting Amtrak’s funding requirements.

Congress Should Decide Whether Excess Federal Subsidies Are Best Spent on
Amtrak or Elsewhere. We believe Congress is best able to decide how limited
Federal resources should be allocated among all the significant competing
demands for those limited resources, which could be for Amtrak or anywhere else
needed. We note that Amtrak’s decision to increase spending this year, in part by
spending down its cash balance, effectively removes the Appropriations
Committees and Congress as a whole from decisions concerning how these excess
subsidies should be spent.

An appropriate balance is required between providing adequate resources to meet
Amtrak’s cash flow requirements and allowing for meaningful congressional
oversight of Federal funds.     This could be achieved by adjusting Amtrak’s
appropriation, thereby limiting Amtrak’s cash balance. Amtrak would then be
required to justify to Congress its requirement for additional appropriations,
should that need arise. Congress took this approach with Amtrak’s FY 2006
appropriation when it lowered Amtrak’s operating subsidy from its $540 million
request to an appropriation of $485 million. The risk that Amtrak might face
unanticipated cash needs in excess of a more limited cash balance would be
mitigated by the Efficiency Grant appropriation, which would be available for
operating expenses if needed.

Alternatively, Congress could leave the higher cash balance in place, but impose
limitations on its use. For example, Federal agencies funded through the
Transportation/Treasury Appropriations Bill are restricted in their ability to
reallocate funds by reprogramming requirements.

Amtrak’s Business Plan Must Accurately Reflect Planned Spending for
Meaningful Oversight to Occur. On March 14, 2007, Amtrak published its
FY 2007 Comprehensive Business Plan, as required by the Revised Continuing
Resolution, 2007 (Public Law 110-05). This plan is an improvement over
previous plans in the type and amount of information provided. The capital and
debt service budgets were current at the time the Business Plan was released.
However, the operating budget was not.

The operating budget in the Business Plan included strategic reform initiatives that
Amtrak had already canceled, “unidentified budget improvements” that Amtrak
had already determined to be unnecessary, and a spending plan that Amtrak had
already replaced. The out-of-date operating budget makes the Business Plan of
limited use in understanding Amtrak’s financial situation and is possibly


CC-2007-017
                                                                                                                                                     5

misleading. More transparent and accurate Business Plans will better inform those
making decisions regarding Amtrak’s resource requirements.

Amtrak’s Financial Performance Through March Exceeds Projections

This section provides the results of our review of Amtrak’s year-to-date financial
performance through March.

Corporate Level Results. Through March 2007, Amtrak’s operating loss was
$207 million, $99 million better than projected in its $485 million FY 2007
operating budget and $118 million favorable to the FY 2007 baseline budget of
$550 million4 (see Figure 1).

                                                     Figure 1. Amtrak Operating Loss
                                                   FY 2007 – Year to Date through March


                               Oct        Nov       Dec       Jan        Feb         Mar           Apr     May       Jun      Jul    Aug     Sep
                          0
                                  (23)
                                            (50)
                               (45)                   (80)

                                         (85)                   (147)
                                                                          (178)
                                                   (140)                                 (207)
                       (200)
       $ in millions




                                                             (210)
                                                                                                 $118 million savings to date
                                                                        (272)

                                                                                    (325)

                       (400)                                                                      (367)
                                                                                                          (410)
                                                                                                                     (436)
                                                                                                                             (476)
                                                  $485 million
                                                                                                                                     (515)
                                                Federal Subsidy
                                                                                                                                             (550)
                       (600)
                                                                                Actual             Baseline Budget




Amtrak’s financial performance reflects $23.5 million in revenues above, and
$75.3 million in expenses below, the level projected in its budget. The favorable
revenue performance was due primarily to passenger revenues that were
$25 million higher than projected in the budget offset by commuter revenue,
which was $1.8 million lower than projected. Ticket revenue from Acela service
is significantly above budget projections (+$27.6 million) due to a combination of
fare increases and ridership growth. Revenues from Regionals service

4
    The baseline budget reflects our estimate, in our January report, of the total amount of Federal subsidy
    and savings Amtrak requires to make ends meet in FY 2007.


CC-2007-017
                                                                                                           6

(+$1.8 million) and long-distance services (+$4.7 million) also were both above
budget projections. Revenues from state corridor services were $7.7 million
below budget projections.

Operating expenses were $75.3 million below budget projections mainly due to
lower costs for salaries, wages, and benefits ($62.1 million) and lower fuel costs
($13.1 million). Some of the decrease in salaries and wages is due to a lower
headcount, however, some is related to the timing of a labor settlement and will
evaporate if and when a settlement is reached.

Business Line Results. As shown in Table 1, the Northeast Corridor (NEC)
accounted for $56.4 million of the $99 million improvement relative to budget
projections through March 2007. This increase is attributable to stronger Acela
on-time performance (OTP), faster service on connecting corridor trains, increased
frequencies, and continued use of revenue management. State-supported and other
corridors lost $13 million more than what was projected in the budget as ridership
fell 3 percent below projected levels. Long-distance services lost $56.8 million
less than what was projected, supported by $4.7 million in revenues that were
higher than projected due to improved OTP, increased ridership, and higher fares.

  Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
               FY 2007 – Year to Date through March ($ in Millions)
                                                                                              Actual vs.
 Business Line                                            Actual            Budget
                                                                                               Budget
 National Train System Operations                       ($110.8)          ($211.06)               $100.2
  Northeast Corridor                                      $141.7               $85.3               $56.4
  State Supported and Other Corridors                     ($45.9)            ($32.9)             ($13.0)
  Long-Distance Service                                 ($206.6)           ($263.4)                $56.8
 Infrastructure Management                                ($31.2)            ($14.4)             ($16.8)
 Ancillary Business                                         $44.5              $37.6                 $6.9
 Unallocated System                                     ($109.4)           ($117.9)                ($8.5)
  Total                                                 ($206.9)           ($305.7)                $98.8
* Amtrak reports these financials on an earnings before interest, taxes, depreciation, and OPEBs (other post-
  employment benefits) basis.




CC-2007-017
                                                                                     7

Progress Is Being Made on Some Reform Initiatives, But Overall
Savings Will Fall Short of Plans

Amtrak is on a path to realize $39 million of the $61 million in FY 2007
operational reform savings it originally anticipated and $224 million of the
$550 million in FY 2011 savings originally anticipated once the reforms are more
fully implemented. Amtrak may realize additional savings in FY 2011 as it
continues to refine its plans.

In FY 2007, Amtrak canceled both the sleeper right-sizing and call center
initiatives, thereby reducing its projected FY 2007 savings by $21.9 million. It
canceled the sleeper right-sizing initiative after concluding that its $19.7 million in
projected savings were based on overly optimistic assumptions. It canceled the
call center initiative, estimated to save $2.2 million in FY 2007, after agreeing
with its labor unions not to outsource call center operations for at least 5 years in
return for work rules changes and lower starting salaries for new hires.

Our projected 5-year savings from reforms is $224 million, $336 million or
61 percent, below the projected savings Amtrak included in its April 2005
Strategic Reform Initiatives plan. This reflects a lack of reportable progress on the
network restructuring and use of assets, improved cost recovery of services from
states, and labor reform initiatives. Amtrak continues to work on these initiatives
and may yet achieve savings from them.

Most Savings to Date are From One Initiative. Through January 2007, Amtrak
achieved $13.1 million in savings from operational reforms, almost 80 percent of
which came from the Reduce Costs and Improve Service Quality initiative (see
Table 2). Additional details on Amtrak’s savings to date from operational reforms
can be found in Enclosure 1.




CC-2007-017
                                                                                                            8


                 Table 2. Summary of FY 2007 Strategic Reform Initiatives
                   FY 2007 – Year to date through January ($ in millions)
                                                                   Actual
                                               Estimated            YTD          Variance
Strategic Reform Initiative                   YTD Benefit          Benefit          +/-            Progress


Reduce Costs and Improve
Service Quality                                         9.3           10.3            1.0        On schedule
Increase Sales and Distribution                                                                 Slightly behind
Efficiencies                                            1.3            0.9           (0.4)         schedule
Enhance Reliability and Efficiency                                                                  May be
of Mechanical Services                                (0.1)            0.0            0.1        accelerated
Improve Management Systems
and Overhead Efficiencies                               0.8            1.4             0.6       On schedule

Achieve Ongoing Efficiencies                            1.2            0.3           (0.9)      On schedule
Optimize Network Services and                                                                   No reportable
Use of Assets                                           2.7            0.2           (2.5)        progress
Full Cost Recovery of Services                                                                  No reportable
and Assets                                              0.0            0.0            0.0         progress
                                                                                                No reportable
Modernize Labor Contracts                              0.0             0.0             0.0        progress
 Total                                                15.2            13.1           (2.1)

   The following is a summary of Amtrak’s recent progress on its strategic reform
   initiatives. Enclosure 2 provides additional details on the projected FY 2007 and
   5-year savings for these initiatives. Enclosure 3 provides more detailed discussion
   on progress to date on these initiatives.

   • Reduce Costs and Improve Quality of Passenger Services. Through
     January 2007, Amtrak achieved $10.3 million in operating savings from this
     initiative. Of that amount, $6.8 million was from food and beverage service
     reforms and $3.5 million was from reforms that improved Acela revenues.

         Food and beverage service savings come from two projects first implemented
         in FY 2006, Simplified Dining5 and the renegotiated Gate Gourmet contract
         and a project first implemented in FY 2007, outsourcing food and beverage
         revenue collection in FY 2007. For another new FY 2007 initiative,
         production delays for new dining cars will shift related savings ($0.6 million)
   5
       Simplified Dining is Amtrak’s redesigned food service that primarily relies on fully prepared food
       products that require only on-board heating in a convection or microwave oven, eliminating the need for
       an on-board chef and server. This initiative has resulted in the elimination of 200 on-board food and
       beverage positions.


   CC-2007-017
                                                                                   9

   to FY 2008. Increased Acela revenues came from reforms that improved on-
   time performance, reduced trip times, and added a 15th Acela trainset. This
   trainset allowed Amtrak to replace a Metroliner trainset between Washington,
   D.C. and New York and to add a frequency between New York and Boston.

• Increase Sales and Distribution Efficiencies. Through January 2007,
  Amtrak achieved $0.9 million in operating savings from this initiative, which
  were achieved from the elimination of 30 positions through attrition and better
  workforce utilization. Amtrak expects to complete the first installation of
  Quik-Trak machines by July 1. This will give customers the ability to buy
  tickets at stations rather than on the trains. The installation of Quik-Trak
  machines will reduce the need for ticket agents at stations, further decreasing
  labor and benefits costs. Amtrak expects this measure to eliminate an
  additional 31 positions by October. The project is slightly behind schedule but
  is on target for completion within FY 2007.

• Enhance Reliability and Efficiency of Mechanical Services and Materials
  Management. Through January 2007, Amtrak achieved no net savings from
  this initiative as the savings realized through facilities efficiencies were offset
  by consulting costs associated with Reliability Centered Maintenance (RCM).
  However, it should be noted that the ability to add the 15th Acela trainset was
  due to maintenance efficiencies achieved from the RCM initiative.

   Amtrak achieved $1.0 million in savings from facilities efficiencies by
   eliminating a net of 37 positions through the consolidation of the New Orleans
   locomotive maintenance facility to Chicago. Amtrak’s analysis of the RCM
   impact on the Acela maintenance processes indicates that benefits may be
   accelerated significantly into FY 2007, assuming new maintenance practices
   are adopted as planned.

• Improve Management Systems and Overhead Efficiencies. Through
  January 2007, Amtrak has achieved $1.4 million in savings from reduced
  overhead costs, including utility management savings, reduced bank services
  and fees, pension plan administrative costs, reduced administrative fees related
  to medical benefits, and savings resulting from the installation of on-board
  credit card terminals. Significantly, Amtrak signed co-brand credit card
  contracts with JP Morgan Chase and MasterCard for a period of 7 years with
  expected benefits estimated at almost $80 million. The contracts are designed
  to increase revenue and reduce credit card processing costs.

• Achieve Ongoing Efficiencies. Through January 2007, Amtrak has achieved
  $0.3 million in savings from a 4-percent productivity gain related to a drop in
  core wages and associated overtime from Amtrak’s Engineering Department.


CC-2007-017
                                                                                 10

• Optimize Network Services and Use of Assets. As previously discussed,
  Amtrak canceled the sleeper right-sizing initiative after further analysis
  revealed that the original assumptions underlying the projected savings were
  overly optimistic and not realistic. Minor savings ($0.2 million) have been
  achieved from eliminating a train attendant from the Crescent and Texas Eagle.
  There are no further savings expected from this initiative this year. In addition,
  Amtrak and the Board of Directors have not yet made a decision on how to
  proceed with its previously announced intention to restructure Amtrak’s routes.

• Full Cost Recovery of Services and Assets. This initiative seeks to recoup
  fully allocated losses from states for corridor services and from commuters on
  the Northeast Corridor. Currently, states do not pay any of the costs for
  corridor services that were in existence in 1971 when Amtrak was incorporated
  and pay only the direct costs, but not overhead or capital costs, for corridor
  services initiated after 1971. Amtrak proposed to phase in increased state
  payments, starting in FY 2008, so that eventually all states would pay their
  fully allocated operating cost and a capital charge. Amtrak has been
  unsuccessful in convincing states to increase payments, but continues to pursue
  this goal.

• Modernize Labor Contracts. This initiative is aimed at reducing unit costs
  and increasing job flexibility by negotiating new labor agreements that will
  eliminate certain work rule and outsourcing restrictions and to align wages
  based on market demand. Labor negotiations are ongoing. No savings from
  this initiative are expected in FY 2007.

Conclusion

Amtrak continues to make progress on many of its strategic reforms. However, as
we have previously reported, Amtrak has made little or no progress on the more
challenging strategic reforms, such as network restructuring, fully allocated cost
recovery from states, and labor reform. Further, Amtrak slowed the overall pace
of reforms this year. We continue to believe that both Amtrak and its stakeholders
could better evaluate the reforms that are needed and the pace of reforms if
Amtrak were to benchmark its operations against those of industry leaders.

Additionally, from a process standpoint, we believe that a better decision on how
limited Federal resources are to be allocated would result if Congress were able to
weigh all competing uses for excess Federal operating subsidies. As it stands
now, the decision on how to allocate these excess funds this year involved only
uses by Amtrak. Congress could decide, after weighing all options, that the best
use of these funds is for Amtrak or another Federal program.



CC-2007-017
                                                                                11

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please call me at (202) 366-6767 or David
Tornquist, Assistant Inspector General for Competition and Economic Analysis, at
(202) 366-9970.

Sincerely,



Calvin L. Scovel III
Inspector General




CC-2007-017
                                                                               Enclosure 1

            Amtrak’s FY 2007 Savings from Operational Reform

                     Table 3. Summary of Amtrak Savings
              FY 2007 – Year to Date through January ($ in millions)
                                                        Revised
                                                       Estimated    Actual
        Amtrak Net Operating Savings
                                                          YTD        YTD      Variance
                                                        Benefit     Benefit      +/-
    Strategic Reform Initiatives
    1. Reduce Costs and Improve
       Services Quality                                      9.3      10.3       1.0
    Service Quality                                          2.8       3.5       0.7
        Improve NEC Acela service*                           2.8       3.5       0.7
    Food and Beverage Services                               6.5       6.8       0.3
    2. Increase Sales and Distribution
       Efficiencies                                          1.3       0.9      (0.4)
    Station Efficiencies                                     0.6       0.9        0.3
    Call Center Operations                                   0.7       0.0      (0.7)
    E-Ticketing                                              0.0       0.0        0.0
    3. Enhance Reliability and
       Efficiency of Mechanical
       Services                                             (0.1)       0.0       0.1
    Reliability Centered Maintenance                        (0.9)     (1.0)     (0.1)
    Facilities Efficiencies                                   0.8       1.0       0.2
         Develop outsourcing plan for
         locomotive service                                  0.7       0.0      (0.7)
         Facility consolidation                              0.1       1.0        0.9
    4. Improve Management Systems
       and Overhead Efficiencies                             0.8       1.4        0.6
    Overhead Costs                                           0.8       1.4        0.6
        Reduce fuel and power                                0.2       1.0        0.8
        Other overhead                                       0.5       0.1      (0.4)
        Install on-board credit card
        terminals                                            0.1       0.3        0.2
    5. Achieve Ongoing Efficiencies                          1.2       0.3      (0.9)
      Engineering                                            1.2       0.3      (0.9)
    6. Optimize Network Services and
       Use of Assets                                         2.7       0.2      (2.5)
    Routes and Services                                      2.7       0.2      (2.5)
        Restructure long distance coach
        and sleepers                                         2.7       0.2      (2.5)
     Total                                                  15.2      13.1      (2.1)
   Source: Amtrak Strategic Planning Department
   *Included improved trip time, OTP, and 15th train set.




CC-2007-017
                                                                                 Enclosure 2
                                                                                  Page 1 of 3

                          Amtrak’s Operational Reforms Description


                  Table 4. Amtrak’s Proposed Operational Reforms ($ in millions)


                                                             FY 2007 Targeted      Estimated 5-Year
  Strategic Reform                                                Savings*              Savings
    Initiative and                    Objective
                                                                       Revised                Revised
      Program
                                                            Original     April                  April
                                                            FY 2007      2007     Original      2007
 1. Reduce Costs and Improve Service Quality
                           Focus management attention
                           and drive accountability for
                           train service performance,
 Service Quality                                             $3.5       $6.6
                           including on-board service
                           quality and on-time
                           performance.
                           Enhance service flexibility by
                           redesigning food services (for                           $95         $71
 Food and Beverage         example, fully prepared
                                                             $19.4     $19.4
 Services                  meals, multi-purpose food
                           service cars), improving
                           equipment, and outsourcing.
 Long Distance             Improve net operating
 Product                   performance of sleeper            $19.7       $0
 Development               service.
 2. Increase Sales and Distribution Efficiencies

                           Deploy more efficient
 Station Efficiencies      communications and                $2.7       $2.7
                           sales/distribution equipment
                           and processes at stations.

 E-ticketing               Develop enterprise systems        $1.7       $1.2
                           and processes for e-ticketing.
                           Build infrastructure to
                           facilitate customer
 E-Commerce                                                   $0         $0         $41         $32
                           relationships and generate
                           incremental revenue.
                           Develop pricing mechanisms
 Pricing                   for responding to market           $0         $0
                           conditions.
                           Improve cost-effectiveness of
 Call Center               call center operations through
                                                             $0.5        $0
 Operations                improved tools/processes
                           and reduced labor costs.
Source: Amtrak Strategic Planning Department
* Incremental annual savings compared to FY 2006.


      CC-2007-017
                                                                               Enclosure 2
                                                                                Page 2 of 3


         Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)

                                                       FY 2007 Targeted      Estimated 5-Year
     Strategic
                                                            Savings*             Savings
      Reform
                                 Objective                        Revised               Revised
   Initiative and
     Program                                           Original    April    Original     April
                                                       FY 2007     2007     FY 2007      2007
 3. Enhance Reliability and Efficiency of Mechanical Services
 Reliability           Implement RCM to reduce
 Centered              cycle time and increase
                                                        $3.1        $0
 Maintenance           equipment reliability and
 (RCM)                 availability.
                       Implement WMS in
 Work                  Mechanical Department to
 Management            enable management                 $0         $0
 System (WMS)          accountability and
                       effectiveness.
                       Improve Mechanical
 Mechanical            Department productivity
 Productivity and      and quality through               $0         $0        $75        $74
 Quality               improved metrics and
                       monitoring.
                       Optimize facility utilization
                       by developing an
 Facilities
                       outsourcing/insourcing           $2.9       $2.9
 Efficiencies
                       strategy and consolidating
                       and redesigning facilities.
                       Improve efficiency of
 Materials             materials management
                                                         $0         $0
 Management            through new processes and
                       tools.
 4. Improve Management Systems and Overhead Efficiencies
                       Modernize management
                       information systems to
 Management
                       improve accuracy,
 Information                                            $(0.8)    $(0.8)
                       timeliness, and consistency
 System
                       of data and processes
                       across the company.
                       Reduce overhead costs                                  $36        $37
                       through better allocation,
                       improved administrative
                                                        $4.5       $4.5
 Overhead Costs        and support function
                       efficiency, and reduced
                       cash handling and
                       transaction costs.
 Source: Amtrak Strategic Planning Department
* Incremental annual savings compared to FY 2006.




      CC-2007-017
                                                                                   Enclosure 2
                                                                                    Page 3 of 3


         Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)

                                                                FY 2007 Targeted Estimated 5-Year
 Strategic Reform                                                   Savings*          Savings
  Initiative and                       Objective                         Revised           Revised
     Program                                                    Original  April  Original   April
                                                                FY 2007   2007   FY 2007    2007
5. Achieve Ongoing Efficiencies
                          Improve cost-effectiveness of
                          train operations through better
Train Operations                                                  $0       $0
                          labor and crew utilization and
                          resource allocation.
                          Increase productivity of
                          engineering workforce through
                                                                                    $8          $10
Engineering               implementation of engineering
                                                                 $3.7     $3.7
Efficiencies              asset management and
                          improved work management
                          processes.
                          Reduce FRA reportable
Safety                                                            $0       $0
                          illnesses/ injuries rate.
6. Optimize Network Services and Use of Assets
                          Improve alignment of NEC,
Routes and                corridor, and long-distance
                                                                 $0.6     $(0.6)
Services                  routes and services with market
                          demand.
                          Improve fleet and infrastructure                          $92         $91
                          utilization through new service
                                                                 $(0.5)   $(0.5)
Asset Utilization         planning tools/processes and a
                          collaborative infrastructure
                          planning process.
7. Ensure Full Cost Recovery of Services and Assets
                          Improve cost recovery from
State Corridors                                                   $0       $0             TBD
                          states for corridor services
                          Improve cost recovery from
NEC Access                                                        $0       $0             TBD
                          users of the NEC
Long Distance             Improve cost recovery for long-
                                                                  $0       $0             TBD
Network                   distance network
8. Modernize Labor Agreements
                          Negotiate new labor agreements
Labor Contracts                                                   $0       $0             TBD
                          that increase workforce flexibility
Total                                                            $61.0    $39.1    $347         $315
 Source: Amtrak Strategic Planning Department
* Incremental annual savings compared to FY 2006.




      CC-2007-017
                                                                      Enclosure 3
                                                                       Page 1 of 5

                 Amtrak’s Strategic Reform Initiatives

Reduce Costs and Improve Quality of Passenger Services

This initiative focuses on revenue improvements, cost savings, and customer
service improvements in two areas: (1) service quality and (2) food and beverage
(F&B). The service quality component consists of placing Service Managers
onboard long-distance trains, implementing the NEC Acela service improvement
plan, improving on-time performance, reducing trip times, and developing new
customer service and measurement tools to improve performance. Amtrak
projects $6.6 million in savings this year will come from an increase in Acela
ticket revenues due to better on-time performance and the addition of a 15th Acela
trainset. It should be noted that the savings associated with Acela improvements
are estimated based on a percentage of total Acela revenue improvement since it is
not possible to attribute increased revenues from specific initiatives. These
estimates are based on Amtrak’s ridership and revenue models of the NEC.

To address customer service quality, the “Amtrak Trip Survey” database and data
collection system, which will allow for evaluation of key service aspects and
measurement of service quality, was completed and began accepting input from
customers in February. Additionally, Service Managers have been deployed on all
long-distance trains and cell phones have been issued to conductors on Acela
service to improve communication during service disruptions, facilitate service
recovery, and improve coordination of day-to-day service.

Amtrak recognizes that it needs to market its services in different ways to attract
the relevant market. Acela customers are largely business travelers that are
primarily interested in on-time performance and want the amenities and comforts
associated with first class travel. Amtrak is working to improve Acela service. It
now has the highest on-time performance among all Amtrak trains, first class
amenities are now in place, and an upgraded menu is offered.

The F&B initiative includes: the Simplified Dining program put into place in
FY 2006, redesign of dining car service, rolling stock modifications, outsourcing
and centralization of the food and beverage revenue collection process, and point
of sale inventory management technology upgrades. Simplified Dining has
resulted in the elimination of 200 on-board F&B positions.

Progress in FY 2007 has been made on several sub-initiatives. Under the F&B
equipment design initiative, prototype Superliner diner design refinements have
been defined and forwarded to Mechanical Engineering and work continues on the
conversion of Amfleet II Lounge cars to the “diner-lite” configuration. The first


CC-2007-017
                                                                      Enclosure 3
                                                                       Page 2 of 5

Amfleet II redesigned lounges are now running on the Cardinal service. Due to a
schedule slip resulting from an extensive study of the prototype and design
modifications, the savings from dining/lounge redesigns will not be seen until
FY 2008.

Increase Sales and Distribution Efficiencies

This initiative aims to deliver increased revenues and distribution efficiencies
throughout Amtrak’s customer-facing channels. Programs under this initiative
include: (1) development and implementation of eTicketing, (2) deployment of
more efficient communications and sales/distribution equipment and processes,
(3) building infrastructure to facilitate customer relationships and generate
incremental revenue, (4) development of pricing mechanisms to enable fast
responses to market conditions, and (5) improvement in cost-effectiveness of call
center operations through improved tools, processes, and productivity.

The majority of the savings from this initiative are expected to come from labor
reductions due to the installation of Quik-Trak machines and the associated
decrease in the need for ticket agents at stations. In February, refund/exchange
automation was loaded into Amtrak’s reservation system (ARROW) which will
allow for 95 percent of exchanges/refunds to be completed automatically. The new
capacity also enables multiple tickets to be generated and processed automatically,
saving time and helping reap additional funds. The first installation of additional
Quik-Trak machines is scheduled to be completed by July 1, and a second wave
will be completed by September 2007. Amtrak estimates a total of $2.7 million in
savings for FY 2007 from this sub-initiative.

The remaining programs under this initiative are, for the most part, in the design
and planning stages. The eTicketing initiative has made the most progress and is
in the planning stage. Software development will begin in the fourth quarter of
FY 2007 and will likely be complete by the fourth quarter of FY 2008. The
transition from paper tickets will continue through FY 2009.

Enhance Reliability and Efficiency of Mechanical Services and Materials
Management

This initiative focuses on improving reliability and efficiency of mechanical
services and materials management. The key components include implementing
Reliability Centered Maintenance (RCM), continued implementation of the Work
Management System (WMS), increasing mechanical productivity and quality, and
enhancing mechanical facilities and materials management operations.



CC-2007-017
                                                                        Enclosure 3
                                                                         Page 3 of 5

On RCM, Amtrak has hired a consultant, T-Solutions, to assist with the
implementation of the program. T-Solutions previously helped implement RCM
successfully for the United States Navy. As a part of the RCM project, Amtrak
has begun a Federal Railroad Administration (FRA)-approved pilot program in
which two Acela train sets will run under close monitoring to evaluate whether the
current 5-year maintenance schedule for the air brake system can be reliably
shortened. This process will allow Amtrak to establish the true life span of the air
brake system. If supported by the results of the pilot program, Amtrak will
petition the FRA for a reduction in the maintenance schedule to reflect the real life
span of the equipment, thereby, reducing maintenance costs. The objective of the
RCM program is to find the right mix and interval of maintenance requirements.

Analysis of the RCM impact on the Acela maintenance processes so far shows that
benefits may be accelerated significantly in FY 2007 assuming practices are
adopted as planned. However, achieving the net benefits of this program is
dependent on the ability of management to change Amtrak culture regarding
maintenance, as the rail industry has traditionally performed maintenance on a
scheduled basis.

The WMS program is also progressing according to plan. When complete, it will
support comprehensive planning and assessment for maintaining Amtrak’s rolling
stock and help manage approximately 4,500 mechanical employees. As part of the
WMS program, Amtrak has completed its Maintenance Effectiveness Reviews on
Acela trains.

Construction work is in progress to ensure greater facilities efficiencies, including
concrete, mechanical, and electrical work on all pertinent tracks. Once completed,
this program will result in the further centralization of maintenance of diesel
locomotives in Chicago. Part of the program requires upgrading the 16th Street
facility in Chicago so that it can efficiently handle additional equipment and
achieve Amtrak’s goal of becoming a world-class maintenance facility. Amtrak
projects $2.9 million in savings from facilities efficiencies in FY 2007.

Finally, Amtrak has been testing its Cleaning, Oiling, Testing and Stenciling
(COT&S) Program to reduce labor costs. While savings from this initiative were
not included in the FY 2007 budget, Amtrak is moving forward with it and savings
will begin accruing next month.

Improve Management Systems and Overhead Efficiencies

This initiative addresses the modernization of management information systems to
improve accuracy, timeliness, and consistency of data and processes across the


CC-2007-017
                                                                     Enclosure 3
                                                                      Page 4 of 5

company. The aim is to reduce overhead costs through better allocation, improved
administrative and support function efficiency, and reduced cash handling and
transaction costs.

Key sub-initiatives are Amtrak’s Integrated Financial System (IFS) and the
Amtrak Performance Tracking (APT) system. APT is a critical financial
infrastructure project designed to ensure Amtrak’s ability to meet Federal
reporting requirements and improve management information by train and route.
The IFS project is on schedule and is in the procurement stage. However, the APT
project has experienced delays in the procurement process, which has caused the
implementation to be moved back. While both projects continue to progress at
various stages, there are no benefits budgeted for FY 2007.

The effort to reduce bank services and fees is ongoing. The installation of on-
board credit card terminals (nationwide rollout began in April) is expected to
result in savings from fraud reduction of credit card services, reduced
commissions, and an increase in F&B revenues from on-board credit card readers.
Finally, a new 401(k) plan was awarded in March and will result in increased
investment income of $2.5 million per year due to reduced pension plan
administrative costs. The effort to reduce bank services and fees is ongoing.
Amtrak estimates $4.5 million in annual savings from all its overhead initiatives.

Achieve Ongoing Efficiencies

This initiative concentrates on achieving ongoing efficiencies within the
Operations Branch. Targeted areas include Train Operations, Engineering and
Safety. Planned benefits include reducing train fuel consumption, increasing
productivity of the Engineering workforce, and reducing FRA reportable
illnesses/injuries.

Train Operations projects in this area include: a train fuel conservation program,
creation of a portable locomotive simulator and subsequent training of locomotive
engineers designed to improve train handling techniques. As of January, a sole-
source procurement to provide a full motion locomotive simulator has been
initiated. However, this project is not expected to be fully implemented until
FY 2008, due to inadequate resources. Similarly, the fuel conservation program
was placed on hold due to a lack of capital funding.

While labor costs in Engineering are decreasing, largely due to better resource
management and not filling vacant positions, it will be difficult to reduce
significantly the size of the maintenance crew until the system comes closer to a
state of good repair. At that point, the maintenance force requirement should

CC-2007-017
                                                                        Enclosure 3
                                                                         Page 5 of 5

decrease. Also, two Engineering efficiencies projects were recently completed:
the Asset Information Center development project and the project to develop a
master work plan, workforce plan, and performance metrics. Amtrak projects an
annual savings of $3.7 million from Engineering Efficiencies this year.

Under the Safety sub-initiative, the Hearing Conservation Program was completed
and closed. Completion of this project will allow Occupational Health program
improvements to reduce the incidents of on-the-job hearing loss.

Optimize Network Services and Use of Assets

The objectives of this initiative are to: (1) improve the alignment of NEC,
corridor, and long-distance routes and services with market demand; (2) improve
fleet and infrastructure utilization through new service planning tools/processes
and a collaborative infrastructure planning process; and (3) improve cost recovery
from states for corridor services.

Initially the bulk of the savings from this initiative was expected to come from
sleeper service reforms. As previously discussed, this project has been canceled.
Amtrak has not yet put forth a plan of action for its network restructuring
initiative. In a related initiative, Amtrak is also evaluating whether to change the
mix of service levels it provides. Four levels of service are being considered:
(1) basic service, a no frills, low cost service; (2) standard service, similar to the
current level of service; (3) enhanced service, similar to the upgraded Empire
Builder, and (4) luxury service, which would be outsourced.

Ensuring Full Cost Recovery of Services and Assets

This initiative is expected to improve cost recovery from states for corridor
services and from commuters on the NEC by increasing the financial contribution
from these users. It will also establish multi-year grant agreements with the FRA
on the long-distance network. Because this initiative is in the planning stage, no
savings are expected in FY 2007.

Modernizing Labor Agreements

This initiative is aimed at reducing unit costs and increasing job flexibility by
negotiating new labor agreements that will eliminate certain work rule and
outsourcing restrictions. It also aims to align wages based on market demand. No
savings are expected from this initiative in FY 2007.




CC-2007-017
                                                                               508 Compliant Charts and Tables
                                                                              Amtrak’s April 2007 Quarterly Report


                                                                                  Figure 1. Amtrak Operating Loss
                                                                                FY2007 – Year to Date through March

                                                  Oct        Nov      Dec        Jan        Feb       Mar        Apr      May       Jun     Jul    Aug     Sep
                                             0
                                                     (23)
                                                               (50)
                                                  (45)                   (80)

                                                            (85)                   (147)
                                                                                             (178)
                                                                      (140)                            (207)
                                          (200)
                          $ in millions




                                                                                (210)
                                                                                                                   $118 million savings to date
                                                                                           (272)

                                                                                                     (325)

                                          (400)                                                                 (367)

                                                             $485 million Federal Subsidy                                 (410)
                                                                                                                                   (436)
                                                                                                                                           (476)
                                                                                                                                                   (515)
                                                                                                                                                           (550)
                                          (600)
                                                                                                       Actual           Baseline Budget




Data Table for Figure 1.
 Months                Oct                          Nov                 Dec                Jan               Feb             Mar           Apr        May          Jun     Jul     Aug     Sep
 Actual                 (23)                                (50)         (80)               (147)             (178)          (207)           n/a       n/a           n/a    n/a     n/a     n/a
 Baseline
 Budget                  (45)                               (85)         (140)             (210)                (272)         (325)        (367)       (410)       (436)   (476)   (515)   (550)
* Note: Amtrak Federal subsidy for FY2007 was $485 million

Through March 2007, Amtrak’s operating loss was $118 million favorable to the FY 2007 baseline budget of $550 million
  Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
               FY 2007 – Year to Date through March ($ in Millions)
                                                                                                       Actual vs.
                  Business Line                                 Actual             Budget
                                                                                                        Budget
    National Train System Operations                         ($110.8)           ($211.06)               $100.2
                  Northeast Corridor                          $141.7               $85.3                 $56.4
       State Supported and Other Corridors                    ($45.9)             ($32.9)               ($13.0)
                Long-Distance Service                        ($206.6)            ($263.4)                $56.8
         Infrastructure Management                            ($31.2)             ($14.4)               ($16.8)
                Ancillary Business                             $44.5               $37.6                  $6.9
              Unallocated System                             ($109.4)            ($117.9)               ($8.5)
                         Total                               ($206.9)            ($305.7)                $98.8
* Amtrak reports these financials on an earnings before interest, taxes, depreciation, and OPEBs (other post-employment benefits) basis.
             Table 2. Summary of FY 2007 Strategic Reform Initiatives
               FY 2007 – Year to date through January ($ in millions)
                                                   Actual
                                      Estimated     YTD      Variance
Strategic Reform Initiative          YTD Benefit   Benefit      +/-       Progress
Reduce Costs and Improve
Service Quality                             9.3      10.3        1.0     On schedule
Increase Sales and Distribution                                         Slightly behind
Efficiencies                                1.3       0.9      (0.4)       schedule
Enhance Reliability and Efficiency                                          May be
of Mechanical Services                    (0.1)       0.0        0.1     accelerated
Improve Management Systems
and Overhead Efficiencies                   0.8       1.4        0.6     On schedule

Achieve Ongoing Efficiencies                1.2       0.3      (0.9)    On schedule
Optimize Network Services and                                           No reportable
Use of Assets                               2.7       0.2      (2.5)      progress
Full Cost Recovery of Services                                          No reportable
and Assets                                  0.0       0.0        0.0      progress
                                                                        No reportable
Modernize Labor Contracts                   0.0       0.0        0.0      progress
 Total                                     15.2      13.1      (2.1)         n/a
  Amtrak’s FY 2007 Savings from Strategic Reform Initiatives

                     Table 3. Summary of Amtrak Savings
              FY 2007 – Year to Date through January ($ in millions)
                                                Revised
    Amtrak Net Operating Savings               Estimated    Actual YTD   Variance
                                              YTD Benefit    Benefit        +/-
1. Reduce Costs and Improve Services
   Quality                                          9.3         10.3         1.0
Service Quality                                     2.8          3.5         0.7
    Improve NEC Acela service*                      2.8          3.5         0.7
Food and Beverage Services                          6.5          6.8         0.3
2. Increase Sales and Distribution
   Efficiencies                                     1.3          0.9       (0.4)
Station Efficiencies                                0.6          0.9         0.3
Call Center Operations                              0.7          0.0       (0.7)
E-Ticketing                                         0.0          0.0         0.0
3. Enhance Reliability and Efficiency of
   Mechanical Services                             (0.1)          0.0        0.1
Reliability Centered Maintenance                   (0.9)        (1.0)      (0.1)
Facilities Efficiencies                              0.8          1.0        0.2
     Develop outsourcing plan for
     locomotive service                             0.7          0.0       (0.7)
     Facility consolidation                         0.1          1.0         0.9
4. Improve Management Systems and
   Overhead Efficiencies                            0.8          1.4         0.6
Overhead Costs                                      0.8          1.4         0.6
     Reduce fuel and power                          0.2          1.0         0.8
     Other overhead                                 0.5          0.1       (0.4)
     Install on-board credit card terminals         0.1          0.3         0.2
                                                   Revised
    Amtrak Net Operating Savings                  Estimated      Actual YTD   Variance
                                                 YTD Benefit      Benefit        +/-
5. Achieve Ongoing Efficiencies                         1.2           0.3        (0.9)
   Engineering                                          1.2           0.3        (0.9)
6. Optimize Network Services and Use
   of Assets                                               2.7        0.2       (2.5)
Routes and Services                                        2.7        0.2       (2.5)
    Restructure long distance coach
    and sleepers                                           2.7        0.2       (2.5)
 Total                                                    15.2       13.1       (2.1)
  Source: Amtrak Strategic Planning Department
  *Included improved trip time, OTP, and 15th train set
                           Text Version for Table 4 – Amtrak’s Proposed Operational Reforms


                                      Strategic Reform Initiative and Program

Program 1
Reduce Costs and Improve Service Quality
   • Service Quality: Focus management attention and drive accountability for train service performance, including on-
     board service quality and on-time performance.

         • FY2007 Original Targeted Savings, $3.5 million
         • Revised April 2007, $6.6 million

   • Food and Beverage Services: Enhance service flexibility by redesigning food services (for example, fully prepared
     meals, multi-purpose food service cars), improving equipment, and outsourcing.

         • FY2007 Original Targeted Savings, $19.4 million
         • Revised April 2007, $19.4 million

   • Long Distance Product Development: Improve net operating performance of sleeper service.

         • FY2007 Original Targeted Savings, $19.7 million
         • Revised April 2007, $0 million

Original Estimated 5-year savings: $95 million
Revised April 2007 savings: $71 million
Program 2
Increase Sales and Distribution Efficiencies
   • Station Efficiencies: Deploy more efficient communications and sales/distribution equipment and processes at stations.

          • FY2007 Original Targeted Savings, $2.7 million
          • Revised April 2007, $2.7 million

   • E-ticketing: Develop enterprise systems and processes for e-ticketing.

          • FY2007 Original Targeted Savings, $1.7 million
          • Revised April 2007, $1.2 million

   • E-Commerce: Build infrastructure to facilitate customer relationships and generate incremental revenue.

          • FY2007 Original Targeted Savings, $0 million
          • Revised April 2007, $0 million

   • Pricing: Develop pricing mechanisms for responding to market conditions.

          • FY2007 Original Targeted Savings, $0 million
          • Revised April 2007, $0 million

   • Call Center Operations: Improve cost-effectiveness of call center operations through improved tools/processes and
     reduced labor costs.

          • FY2007 Original Targeted Savings, $0.5 million
          • Revised April 2007, $0 million
Original Estimated 5-year savings: $41 million
Revised April 2007 savings: $32 million
Program 3
Enhance Reliability and Efficiency of Mechanical Services
   • Reliability Centered Maintenance (RCM): Implement RCM to reduce cycle time and increase equipment reliability
     and availability.

         • FY2007 Original Targeted Savings, $3.1 million
         • Revised April 2007, $0 million

   • Work Management System (WMS): Implement WMS in Mechanical Department to enable management accountability
     and effectiveness.

         • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

   • Mechanical Productivity and Quality: Improve Mechanical Department productivity and quality through improved
     metrics and monitoring.

         • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

   • Facilities Efficiencies: Optimize facility utilization by developing an outsourcing/insourcing strategy and
     consolidating and redesigning facilities.

         • FY2007 Original Targeted Savings, $2.9 million
         • Revised April 2007, $2.9 million

   • Materials Management: Improve efficiency of materials management through new processes and tools.
         • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

Original Estimated 5-year savings: $75 million
Revised April 2007 savings: $74 million



Program 4
Improve Management Systems and Overhead Efficiencies

   • Management Information System: Modernize management information systems to improve accuracy, timeliness, and
     consistency of data and processes across the company.

         • FY2007 Original Targeted Savings, $(0.8) million
         • Revised April 2007, $(0.8) million

   • Overhead Costs: Reduce overhead costs through better allocation, improved administrative and support function
     efficiency, and reduced cash handling and transaction costs.

         • FY2007 Original Targeted Savings, $4.5 million
         • Revised April 2007, $4.5 million

Original Estimated 5-year savings: $36 million
Revised April 2007 savings: $37 million
Program 5
Achieve Ongoing Efficiencies
   • Train Operations: Improve cost-effectiveness of train operations through better labor and crew utilization and
     resource allocation.

         • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

   • Engineering Efficiencies: Increase productivity of engineering workforce through implementation of engineering
     asset management and improved work management processes.

         • FY2007 Original Targeted Savings, $3.7 million
         • Revised April 2007, $3.7 million

   • Safety: Reduce FRA reportable illnesses/injuries rate.

         • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

Original Estimated 5-Year Savings: $8 million
Revised April 2007: $10 million


Program 6
Optimize Network Services and Use of Assets
   • Routes and Services: Improve alignment of NEC, corridor, and long-distance routes and services with market
      demand.
          • FY2007 Original Targeted Savings, $0.6 million
          • Revised April 2007, $(0.6) million

   • Asset Utilization: Improve fleet and infrastructure utilization through new service planning tools/processes and a
     collaborative infrastructure planning process.

          • FY2007 Original Targeted Savings, $(0.5) million
          • Revised April 2007, $(0.5) million

Original Estimated 5-Year Savings: $92 million
Revised April 2007: $91 million


Program 7
Ensure Full Cost Recovery of Services and Assets
   • State Corridors: Improve cost recovery from states for corridor services.

          • FY2007 Original Targeted Savings, $0 million
          • Revised April 2007, $0 million

   • NEC Access: Improve cost recovery from users of the NEC.

          • FY2007 Original Targeted Savings, $0 million
          • Revised April 2007, $0 million

   • Long Distance Network: Improve cost recovery for long-distance network.

          • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

Estimated 5-Year savings to be determined.


Program 8
Modernize Labor Agreements
   • Labor Contracts: Negotiate new labor agreements that increase workforce flexibility.

         • FY2007 Original Targeted Savings, $0 million
         • Revised April 2007, $0 million

Estimated 5-Year savings to be determined.
